No. 20-7235
IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL ALVAREZ,
Petitioner,
V.

UNITED STATES OF AMERICA,

---•---

Respondent.

PROOF OF SERVICE

I, Peggy Sasso, do swear or declare that on this date, May 7, 2021, as required by
Supreme Court Rule 29 I have served the enclosed PETITIONER'S REPLY BRIEF
on each party to the above proceeding or that party's counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

